WORLD MASTERCARD® CREDIT CARD

AGREEMENT AND DISCLOSURES
CONTENTS:
Agreement Information
Terms........................................................................................................ p.1
Pledge of Shares and Security Interest ......................................... p.1
Security Agreement ...................................................................... p.1
Use of the Account
1. Using Your Account ................................................................... p.1
2. ATM Access ............................................................................... p.1
3. Maximum Credit Limit .............................................................. p.2
4. Finance Charges ........................................................................ p.2
5. Convenience Checks ................................................................. p.2
6. Foreign Currency/Cross Border Transactions ........................... p.3
7. Merchant Disputes ................................................................... p.3
8. Illegal Transactions ................................................................... p.3
9. Your Liability ............................................................................. p.3
Billing Information
10. Balance Transfers .................................................................... p.4
11. Monthly Statement ................................................................. p.4
12. Minimum Payment Due .......................................................... p.4
13. Fees ......................................................................................... p.4
14. Promotional Rate Finance Charges ......................................... p.4
15. Returns, Adjustments, Credit Balances ................................... p.4
Payment Information
16. Payments ................................................................................ p.5
17. Automatic Payment Option .................................................... p.5
18. Skip Payment Option .............................................................. p.5
Default and Collections
19. Default .................................................................................... p.5
20. Collection Costs ...................................................................... p.5
Other Provisions
21. Change of Name, Address, or Employment ........................... p.5
22. Updating and Disclosing Financial Information ...................... p.5
23. Correcting a Credit Report ...................................................... p.6
24. Closing Your Account .............................................................. p.6
25. Changing this Agreement ....................................................... p.6
26. Delay in Enforcement/Waivers ............................................... p.6
27. Additional Benefits/Card Enhancements ................................ p.6
28. Cash Back Rewards .................................................................. p.6
29. Mastercard Benefits ............................................................... p.6
30. Overdraft Protection ............................................................... p.6
31. Additional Terms of Agreement .............................................. p.7
32. Automatic Billing Updater ...................................................... p.7
Your Billing Rights .................................................................. p.8
South Carolina Federal Credit Union
WORLD MASTERCARD CREDIT CARD APPLICATION AND DISCLOSURE

May 1, 2021

THIS IS YOUR AGREEMENT AND DISCLOSURE STATEMENT WITH SOUTH CAROLINA FEDERAL
CREDIT UNION. PLEASE READ IT CAREFULLY AND KEEP IT FOR YOUR RECORDS. IT
SUPERSEDES ALL PRIOR AGREEMENTS AND DISCLOSURE STATEMENTS RELATING TO YOUR
ACCOUNT. YOU DO NOT HAVE TO SIGN THIS AGREEMENT. YOUR AGREEMENT TO ALL OF
THESE PROVISIONS, AS AMENDED FROM TIME TO TIME INCLUDING THE CARD ISSUED BY US,
WILL BE SHOWN BY YOUR APPLICATION FOR THE CARD, YOUR ACCEPTANCE OF THE CARD,
OR YOUR USE OF THE CARD, WHICHEVER OCCURS FIRST.
Terms. In this Agreement, the word "Card" means either one or more MasterCard® credit cards or any duplicates,
renewals or substitutions we issue. The words, "you," "your," and "yours" mean all cardholders (borrowers and coborrowers); anyone any cardholder permits to use the Card(s); as well as any authorized user for whom an additional
Card(s) is issued to the extent of their purchases, balance transfers, and cash advances, as well as transactions by
anyone they permit to use the Card(s). The word "cardholder" means any applicant or co-applicant to whom a Card
is issued by us. The words, "Credit Union," "we," "us," "our," and "South Carolina Federal" mean South Carolina
Federal Credit Union. The words "Convenience Checks" mean one or more checks that we may send to you to
access your Credit Card Account.

Pledge of Shares and Security Interest: AS A CONDITION OF APPROVAL FOR AND USE OF
YOUR ACCOUNT, YOU GRANT AND PLEDGE A CONSENSUAL LIEN TO US ON ALL SHARES TO
SECURE PAYMENT OF YOUR OBLIGATIONS ON THIS ACCOUNT. YOU AGREE THAT SUCH A
LIEN IS IMPRESSED AS OF THE DATE THAT THIS ACCOUNT IS OPENED AND YOU AGREE THAT
WE CAN APPLY THE SHARES PLEDGED AT THE TIME OF ANY DEFAULT ON THIS ACCOUNT
WITHOUT FURTHER NOTICE.
"Shares", for the purpose of your pledge to secure your obligations to the Credit Union, means all deposits
in any share savings, share draft, club, certificate, P.O.D., revocable trust or custodial account(s), whether
jointly or individually held -- regardless of contributions that you have on deposit now or in the future. Your
pledge does not include any I.R.A., Keogh, tax escrow, irrevocable trust or fiduciary account in which you do
not have a vested ownership interest.
Military Lending Act Partial Exception: If you or your dependents are expressly covered and entitled to the
protections provided by the Military Lending Act, then NO PLEDGE OF SHARES OR LIEN ON SHARES
APPLIES EXCEPT FOR A SHARED SECURED CREDIT CARD FOR WHICH
YOU EXECUTE A SEPARATE SECURITY AGREEMENT. Any provisions of the Agreement (below) that
address the items expressly excepted in any section to the contrary also do not apply to such Loans .
Security Agreement: "Non-Purchase-Money Security Interests" Payments on your Account are secured by any
security interest in any property securing your other obligations to the Credit Union, whether existing now or in the
future, except your household goods and your primary residence. "Purchase-Money Security Interests" You hereby
grant Credit Union security interest in all property purchased/acquired by you or any authorized user pursuant to the
use of this Account, including a purchase-money security interest in any household goods purchased/acquired with
an extension of credit upon this Account. These Purchase-Money Security Interests shall secure faithful performance
of all obligations arising under this Agreement; and the Credit Union shall have all of the rights of a secured party in
accordance with Article Nine of the Uniform Commercial Code and/or other applicable law.

1. Using Your Account. You can purchase or lease goods and services ("Purchases") from any merchant who
honors your Card up to your maximum credit limit by presenting your Card and signing a sales receipt or writing a
Convenience Check for the amount of the Purchase. You may also use the Card to obtain Cash Advances up to your
maximum credit limit from financial institutions that accept the MasterCard credit card, and by use of preprinted
Convenience Checks that the Credit Union may issue to you. You authorize us to honor any Purchase or Cash
Advance you make by telephone, internet or mail on this account. You agree that a signature is not necessary as
identification in such cases. You agree not to present your Card, obtain a Cash Advance or write a Convenience
Check for any extension of credit in excess of your available Credit Limit (the difference between your outstanding
balance and your maximum credit limit) on your account. Certain purchases and cash advances require authorization
prior to completion of the transaction. In some cases, you may be asked to provide identification. If our system is not
working, we may not be able to authorize a transaction, even though you have sufficient credit available. Also, for
security reasons, we may block the use of your Card in certain countries or geographic areas. We will have no
liability to you or others if any of these events occur.

2. ATM Access. If you have received a personal identification number (PIN), you may use your Card and PIN to
obtain Cash Advances at any ATM that accepts your Card. Except as otherwise provided in this Agreement,
advances through ATM access will be treated as Cash Advances under this Agreement. Your PIN is confidential
and should not be disclosed to anyone. You agree not to write your PIN on your Card, you will not keep your Card
and PIN together, and you will not provide your PIN to anyone who is not an authorized user. Owners of ATMs that
we do not own may charge fees in addition to any fees disclosed in this Agreement or other Credit Card Disclosures
that you receive. Any fees that we charge or that others charge for this service will be added to your account. The
party charging the fee is required to provide appropriate disclosures to you with regard to any such fees.

South Carolina Federal Credit Union
WORLD MASTERCARD CREDIT CARD APPLICATION AND DISCLOSURE

May 1, 2021

3. Maximum Credit Limit. Your Maximum Credit Limit will appear on the folder in which you receive your Card and
on your monthly statement. The credit limit is based on your creditworthiness and our underwriting standards. At our
discretion, we may change your credit limit at any time, and may provide separate limits for purchases and for cash
advances. We will notify you if we do, either by mail or through your monthly billing statement. You may request a
change to your credit limit by contacting the Credit Union by telephone or mail. Your continued use of the card will
show your agreement to any such increase. If you object to an increase in your credit limit, you must notify the Credit
Union in writing. Upon receipt of such notice, your credit limit will be reduced to its prior limit; however, you will be
responsible to pay any amounts by which you have exceeded the reduced limit. You agree to pay any amounts you
owe that exceed your maximum credit balance upon demand. You agree we are not obligated to extend to you credit
for any amount that would cause your outstanding balance to exceed your Maximum Credit Limit, or for any amount if
your outstanding balance already exceeds your Maximum Credit Limit. Any increase in your Maximum Credit Limit
requested by you will require you to make a new application for our approval. In assessing your credit limit under the
provisions in this Section (either at our discretion or upon request): (a) we may and you authorize us to review your
credit history, including consumer credit reports; (b) you authorize us to have this review made by third parties to
determine whether you meet the criteria we have set for such an increase; and (c) this process shall not be prescreening under the Fair Credit Reporting Act or other applicable laws or regulations based on our existing relationship
and this Agreement.
ATM and Over-the-Counter Cash Advance Limits. Advances at authorized ATM's are limited to a total of $1010.00
during any 24-hour period. Over-the Counter cash advances are limited to three per day and based on your credit limit.

4. Finance Charges. You agree to pay the FINANCE CHARGE on your account. A FINANCE CHARGE computed
on a monthly periodic rate ("MPR") will begin to accrue for new Purchases, if you do not pay the New Balance in full
within 25 days after the billing date of the statement on which the new Purchases first appear according to the Grace
Period above. For Cash Advance(s) and Balance Transfer(s), a FINANCE CHARGE computed on a monthly periodic
rate ("MPR") will begin to accrue on the transaction date. For purchases (except as provided above), a FINANCE
CHARGE computed on an MPR will begin to accrue on the transaction date or the first day of the billing cycle,
whichever is later. FINANCE CHARGES on Cash Advance(s), Balance Transfer(s) and Purchases will continue to be
imposed until you have paid any outstanding balance in full. The Credit Union calculates the FINANCE CHARGE as
follows:

a. The FINANCE CHARGE will be figured by applying the monthly periodic rate to the average daily
balance of Purchases, Balance transfers, and Cash Advances. Your Annual Percentage Rate (APR) is
determined based on your creditworthiness and will be provided to you separately either in writing or
electronically at the time your credit card is approved.
APR = Prime + Margin, 18% Maximum

Prime Rate + 8.99%
Prime Rate + 10.99%
Prime Rate + 12.99%
Prime Rate + 14.49%
RATES FOR PURCHASES AND BALANCE TRANSFERS ARE VARIABLE AND SUBJECT TO CHANGE.
Rates for Cash Advances are not variable. Maximum APR is 18%. Your ANNUAL PERCENTAGE RATE (APR)
for Purchases and Balance Transfers, will be calculated by adding a margin from above to the Prime rate as
correctly published in the Wall Street Journal as of the Wednesday immediately preceding the billing cycle. The
Credit Union may adjust the rate once each month effective the first day of the billing cycle. APR changes will
reflect on the following month’s statement.
b. To get the total average daily balance on your Account, we take the beginning balance of your Account each
day, add any new Purchases and Cash Advances, unpaid Finance Charges, current late payment fees, and
other fees, and subtract any payments or credits. This is your daily balance. Then we add up all the daily
balances for the billing cycle and divide that total by the number of days in the billing cycle. This gives you
the average daily balance. This determines the balance subject to the FINANCE CHARGE.
5. Convenience Checks. At our option, we may offer convenience checks. Any individual cardholder or authorized
user can use your Convenience Checks to purchase goods and services or to obtain cash up to the amount of your
available credit limit. Credit Union will treat Convenience Checks as Cash Advances and will charge them against
your credit limit. Credit Union may decline to honor a Convenience Check if you are over your credit limit, you are in
default, your account privileges have been canceled, or your Card has expired. If we decline to honor a Convenience
Check, Credit Union may charge you a fee, which the Credit Union will add to your account balance. Convenience
Checks may be used only by the person whose name is printed on them. You may not use Convenience Checks to
pay any amount you owe the Credit Union under this or any other credit agreement with the Credit Union. Credit
Union will not certify any Convenience Checks, nor will the Credit Union return paid Convenience Checks to you. It is
in the Credit Union's sole discretion to issue Convenience Checks to any member.

South Carolina Federal Credit Union
WORLD MASTERCARD CREDIT CARD APPLICATION AND DISCLOSURE

May 1, 2021

Stopping payment of a Convenience Check. You may ask us to stop payment of a convenience check by calling
us at (800) 845-0432. You may be charged a stop payment fee/a stop payment fee may be added to your account
balance. Your stop payment request will be effective permanently. We will use commercially reasonable efforts to
stop payment on your convenience check. However, you agree that convenience checks are credit transactions; and
that we will not be responsible in any way if the convenience check that you have requested us to stop payment on is
cashed or otherwise presented for payment and, using commercially reasonable efforts, we are unable to stop
payment. You agree that the UCC does not apply to a convenience check.
6. Additional Charges for Transactions in a Foreign Currency and "Cross-Border" Transactions.
Currency Conversion Fee: If you effect or authorize a transaction with your access device in a currency other than
US Dollars, even if you are physically located within the United States when you effect or authorize the transaction,
MasterCard will convert the charge into a US Dollar amount. The MasterCard currency conversion procedure
includes use of either a government mandated exchange rate, or a wholesale exchange rate selected by
MasterCard, as applicable. The exchange rate MasterCard uses will be a rate in effect on the day the transaction is
processed. This rate may differ from the rate in effect on the date of the purchase or the date the transaction was
posted to your account. A Currency Conversion Fee of up to 1% may be applied to transactions that are converted
from foreign currencies to U.S. dollars. Cross-Border Transaction Fee: In addition, MasterCard charges us a
Cross-Border Assessment up to 1% on each transaction on all cross-border transactions regardless of whether there
is a currency conversion. For purposes of this Section, "cross-border transaction" shall include both (a) transactions
initiated in a foreign country, which are subsequently settled in the United States, and (b) transactions initiated in the
United States but are ultimately settled in a country outside of the United States. The Credit Union may, in its
discretion, assess these fees to you to reimburse it for the fee it is required to pay for each of your transactions
subject to these terms. The Cross-Border Transaction fee(s), if assessed, will be shown separately on your periodic
billing statement(s). The Currency Conversion Fee, if it applies to the transaction, will be included in the transaction
amount posted on your statement.
7. Merchant Disputes. The Credit Union is not responsible for the refusal of any merchant or financial institution to
honor your Card except as set forth in the Special Rules for Credit Card Purchases set forth at the end of this
Agreement.

8. Illegal Transactions. You warrant and agree that your Credit Card, other access device or any related
account will not be used to make or facilitate any illegal transaction(s) as determined by applicable law; and
that any such use, including any such authorized use, will constitute an event of default under this
Agreement. Certain federal and/or state laws or Card Service Providers’ Rules may limit or prohibit certain
transactions such as (but not limited to) those coded as possible gambling transactions. The Credit Union
may decline to accept, process or pay any transaction that we believe to be illegal or unenforceable
(regarding your obligation to pay us or otherwise) under applicable law; or which is otherwise limited or
prohibited, including but not limited to any transaction involving or relating to any gambling activity. Such
prohibition or limitations may affect some otherwise proper or allowable transactions such as charges
incurred at a hotel-casino. You understand and agree such limitations/prohibitions are not within the Credit
Union’s control and that the Credit Union will not have any liability, responsibility or culpability whatsoever
for any such use by you or any authorized user(s); or for declining to accept, process, or pay any such
transaction. You further agree to indemnify and hold the Credit Union harmless from any suits, liability,
damages or adverse action of any kind that results directly or indirectly from any such use of your account
and/or access devices.
9. Your Responsibility and Liability for Unauthorized Use and Lost or Stolen Cards or Convenience Checks.
If your Card or Convenience Checks are lost or stolen, or if you suspect someone used or may use them without
your permission, you must notify the Credit Union at once by calling 1-855-510-4594 (US) or 310-287-2002
(International) or writing Credit Card Services-PO Box 182477-Columbus, OH 43272-4935. If notice is given orally,
you will promptly confirm it in writing. The Credit Union may require you to provide us certain information in writing to
help us investigate any unauthorized use. Further, you agree to cooperate and assist us or any government or law
enforcement agent or agency in investigating, collecting or pursuing any other rights (civil and criminal) relating to
any unauthorized use. In this regard, you agree to file an appropriate police report when asked to do so. Do not use
the Card or the Convenience Checks after you have notified the Credit Union, even if you find them or have them
returned to you.
You are liable for all transactions that you authorize.
No Liability: You will have no liability for unauthorized use of your Card, Convenience Checks, or other Access
Devices for transactions if the following conditions are met: (1) you have used reasonable care in protecting your
card from loss or theft; and (2) you have promptly reported to your financial institution when you knew that your
Mastercard was lost or stolen.

South Carolina Federal Credit Union
WORLD MASTERCARD CREDIT CARD APPLICATION AND DISCLOSURE

May 1, 2021

10. Balance Transfers. Balance transfers may not be used to repay existing South Carolina Federal Credit Union
loan products. If you transfer a balance from another issuer/merchant, continue to make your monthly payments to
the issuer/merchant until you receive a statement from the issuer/merchant reflecting the balance transfer payment.
If your balance transfer request exceeds your credit limit, we will process an amount less than your requested
amount.
11. Monthly Statement. We will send you a monthly billing statement whenever there is activity on your account.
Your monthly statement will show information concerning your account as required by law. Such information may
include but is not limited to purchase and cash advance transactions, credit limit, etc.
E-Statements: You will be sent a notice via e-mail that will direct you to a site we maintain or cause to be maintained
where you may access, review, print and otherwise copy/ download your periodic statements using procedures that
we authorize. E-mails from us will be sent to the e-mail address provided by any owner to the last known e- mail
address provided. You agree to notify us promptly of any change of your e-mail address. If you have not notified us
of any change of your e-mail address, you agree that your failure to provide us with a valid e-mail address is the lack
of ordinary care on your part. If we become aware that you are not receiving e-mail, we may restrict your access to
these services until you provide us with the correct e-mail address and you may be converted to paper documents.
12. Minimum Payment Due. You can pay off your account balance in full each month or you can pay in monthly
installments. If you do not pay your balance in full, you agree to pay at least a minimum payment of 2.5% of your
New Balance (rounded to the nearest whole dollar) or $10.00, whichever is greater at the end of each statement
period. If the New Balance shown on your periodic statement is $10.00 or less, you agree to pay this amount. Unless
the Credit Union takes other action as a result of a default under this Agreement, the Minimum Payment Due will also
include any amount that is past due and any amount by which your new balance exceeds your credit limit. Payments
and credits will be applied first to pay billed but unpaid finance charges; late charges, and other fees or charges
provided for herein; and next to unpaid cash advances; and then to your unpaid purchase balance. The "Payment
Due Date" will be shown on your periodic statement.
Grace Period: Grace period for repayment of the balance for purchases is approximately 25 days from the close of
the billing cycle. See your statement for billing cycle date.
13. Fees. In addition to the periodic rate, the following additional fees may be imposed on your account. These fees
could cause you to exceed your credit limit. Please refer to the section on Minimum Payment Due for information about
how over-the-limit balances affect your monthly payment amount. If applicable to your account, the fee amounts and
explanations are disclosed on the Credit Card Disclosure accompanying this Agreement.
a. Expedited Payment Fee. You may be charged a fee for expedited payments made via telephone to a Credit
Union Representative. Fees are not assessed for payments made by mail, electronic transfer, or telephone
authorization through an automated service. Ask us for applicable fee amount.
b. Late Payment Fee. Credit Union will charge your account a late payment fee for each billing period in which
your minimum payment is not received within five (5) days of your payment due date. This fee may be added
to your account balance, or collected from you on demand.
c. Returned Payment or Insufficient Funds Fee. Credit Union will charge your account a fee if your payment
by any method, including check, electronic transfer, home banking transaction or otherwise, is not honored, or
if we must return it to you because it cannot be processed for any reason. This fee may be added to your
account balance, or collected from you on demand.
d. Charge for Copies, Research and Card Replacement. If you ask for a copy of any document, such as a
sales draft, Convenience Check, or billing statement, a charge may be imposed for the time it takes to
research and locate the document. However, no charge will be imposed in connection with any actual or
asserted billing error. We may charge a fee to replace a card.
e. Balance Transfer Fee. This fee may be added to your account balance, or collected from you on
demand.
14. Promotional Rate Finance Charges. From time to time and in our sole discretion we may offer a special
rate applicable to certain transactions such as particular purchases (as defined by us), balance transfers, or cash
advances. Applicable terms and conditions will be disclosed at the time any such promotion is offered, and are
incorporated into this Agreement by reference. The promotional rate will apply only to the transactions and for the
period of time set forth in any such offer from us. Existing balances and new purchases or advances not expressly
subject to any such promotion will remain governed by the terms and conditions of this Agreement. In addition, the
terms and conditions of this Agreement will govern your obligations regarding any unpaid balance or transactions
that are made subject to any such promotional offer, that are not fully paid within the time period
set forth in such promotional offer.
15. Returns, Adjustments, Credit Balances. Merchants and others who honor your Card may give credit for
returns or adjustments, and they will do so by sending the Credit Union a credit transaction, which will be posted to
your Account. If your credits and payments exceed what you owe the Credit Union, the amount will be applied
against future purchases and cash advances. If the credit balance amount is $1.00 or more, it will be refunded upon
your written request or automatically after six months by transferring the amount to your share savings account or
mailing a check (only upon request) payable to the order of any cardholder to the statement mailing address.

South Carolina Federal Credit Union
WORLD MASTERCARD CREDIT CARD APPLICATION AND DISCLOSURE

May 1, 2021

16. Payments. You will be jointly and severally liable and agree to pay the Credit Union for all charges (purchases,
cash advances, finance charges, and other charges added to your Account under the terms of this or any other
agreements with us) extended to you or anyone else using any Card issued for your account, unless the use of such
Card is by a person other than you, who does not have actual, implied or apparent authority for such use and from
which you receive no benefit. Authority includes, but is not limited to, any authorized users permitting another person
to use any Card(s). Further, all users are obligated to us for all charges they make, authorize, or permit.
The Credit Union can accept late or partial payments as well as payments that are marked with "paid in full" or other
restrictive endorsements, without losing any of our rights under this Agreement. You must pay the Credit Union in
U.S. dollars drawn on funds on deposit in the United States. If you make payment with other currencies or from an
institution domiciled outside the United States, then your payment will not be credited until the funds have been
collected by us in U.S. dollars.
Unless otherwise required by specifically applicable laws, for payments received by mail by 5:00 PM EST, your
payment will be effective that day; and for payments made in any other manner, including in person, your payment is
effective the date received.
To protect you and us, the Credit Union, in its sole discretion, may place a temporary freeze on all or part of
the credit available to you for new purchases or cash advances under this agreement any time the Credit
Union receives a large payment ($5,000.00 or more) by any method. In such cases, the Credit Union may
freeze your credit line until payment is actually collected or verified.
17. Automatic Payment Option. If you requested the Automatic Payment Option in your Application, all Minimum
Payments due will automatically be deducted from your designated account on your Payment Due Date. If your
designated account does not contain sufficient funds, no automatic deduction will be made; we will bill you for the
Minimum Payment Due; and your account will be charged an insufficient funds fee and you will be responsible for
making the payment by some other means.
18. Skip Payment Option. At our option, we may offer you the opportunity to not make ("skip") a minimum
payment during certain designated billing cycles ("skip payment period"). If you do not make your minimum payments
as provided in this Agreement, during such designated billing cycles, you understand that we will continue to apply
finance charges to your account. Beginning with the billing cycle following an allowed skip payment period, all other
provisions of this Agreement will apply.
19. Default. You will be in default if: (a) you fail to pay the Minimum Payment Due by the Payment Due Date; (b) the
Credit Union, in its sole discretion, feels insecure (For example: Our good faith belief that your ability to pay your
account is impaired; use of your account in any manner or in any way that may expose the Credit Union to a risk of
loss; etc.); (c) your ability to repay is materially reduced by a change in your employment, by an increase in your
obligations, by bankruptcy or insolvency proceedings involving you, by your death, or (for community property state
residents only) by a change in marital status or domicile; (d) you exceed your credit limit without our permission; (e)
you have made a false or misleading statement to us in your application or otherwise; (f) you are in default under any
other agreement with us; (g) if you use or authorize the use of any Card(s) to make or facilitate any illegal transaction;
or (h) you fail to perform any of your other obligations under the terms of this Agreement as it may be amended from
time to time. Upon default we may close your Account to future purchases and advances and, to the extent not
prohibited by Governing Law, demand immediate payment of your entire Account balance, after giving you any notice
and opportunity to cure the default if required by applicable law. The Credit Union's sole obligation hereunder with
regard to determining and declaring an event of default is the exercise of "good faith," based on its subjective
understanding of applicable facts. We shall also have the right to close your account and terminate access privileges
where your account is inactive for such periods of time as we may from time-to-time determine to be appropriate for
protecting both our and your interests.
20. Collection Costs. You agree to pay all costs incurred by the Credit Union in collecting any amounts you owe or
in enforcing or protecting the Credit Union's rights under this Agreement, including attorneys' fees of 20% of the
unpaid balance or such greater sum as may be reasonable, and also those costs, expenses and attorneys' fees
incurred in any appellate, bankruptcy and post-judgment proceedings, except as limited or prohibited by applicable
law.
21. Change of Name, Address or Employment. You will notify the Credit Union immediately in writing if your
name, home address, email address, telephone number, or employment changes.
22. Updating and Disclosing Financial Information. We may report your performance under this Agreement
to consumer reporting agencies and secure follow-up consumer reports on you for any legitimate business reason,
including if you fail to make your minimum payments on time. We can reinvestigate and reevaluate any information
you provide on your MasterCard Application at any time, and in the course of doing so, we may ask you to provide
additional information, request credit bureau reports and/or otherwise verify your current credit standing.
Access to Account Information: You agree that all borrowers and authorized users will have access to information
regarding transactions on your account, including but not limited to purchases and cash advances, account balances,
account history, payments and other information relating to or arising with regard to this account or any transaction.

South Carolina Federal Credit Union
WORLD MASTERCARD CREDIT CARD APPLICATION AND DISCLOSURE

May 1, 2021

23. Correcting the Credit Union's Credit Report. If you think the Credit Union reported erroneous information
about you to a consumer reporting agency, call the Credit Union at the telephone number listed on your monthly
billing statement. Credit Union will promptly investigate the matter, contact each consumer reporting agency whose
records may reflect an error and require them to correct your report if its investigation decides that you were correct. If
Credit Union disagrees with you after the investigation, Credit Union will advise you, in writing or by phone, and
instruct you how to submit to those agencies a statement of your position that will become a part of your consumer
record with them. The instructions will include the name, address, and phone number of each such agency, along with
other pertinent information.
24. Closing Your Account. Any individual cardholder without the consent of other cardholders may close your
Account at any time by notifying us in writing as indicated in this Agreement. Credit Union may close your account or
suspend your Card privileges or Convenience Checks at any time without prior notice. Credit Union may also reissue
a different Card or different checks at any time. You must return the Card or the Convenience Checks to the Credit
Union upon request. You agree that the Card and all Convenience Checks remain the property of Credit Union. Each
Card we issue will have an expiration date. Upon expiration of your Card your account will automatically terminate; or
the Credit Union, in its sole discretion, may extend your Agreement and issue a new card with a new expiration date.
If your account is closed, expires or your credit privileges are terminated or suspended, you will remain responsible
for paying all amounts you owe us according to the terms of this Agreement. Without limiting the foregoing, the Credit
Union has the right to terminate your line of credit and to demand the return of all cards, access checks and other
access devices if the Credit Union, in its sole discretion, feels that it is insecure for any reason whatsoever; including
but not limited to mismanagement of your account, failing to safeguard any access device, creation of any credit
balances by you that may increase the risk of loss or exposure of the Credit Union or failing to cooperate with the
Credit Union or others with regard to any claim of unauthorized use or any other defense to payment under applicable
law.
25. Changing This Agreement. The Credit Union may change the terms of this Agreement, including the Annual
Percentage Rate, at any time. Except where limited by applicable law, the new terms, including, but not limited to,
increasing the finance charge or the way the Credit Union calculates finance charges, late charges, and the minimum
payment due, will apply both to new purchases and cash advances and to the existing outstanding balance of your
account as of the day of the change. We reserve the right to refuse to honor any request for credit, to reduce your
credit limit or terminate your account at any time using our sole discretion, based on changes in the economy, the
Credit Union's financial condition, your creditworthiness, or for any other reason not prohibited by law. In accordance
with applicable law, the Credit Union will notify you of any increased charge or change by writing to you at the most
recent address shown for you on the Credit Union's records.
26. Delay in Enforcement/Waivers. The Credit Union may delay or waive enforcement of any of the provisions
of this Agreement, including any agreement to make timely payments, without losing its right to enforce the same
provision later or any other provisions of this Agreement. You waive the right to receive notice of any waiver or delay
or presentment, demand, protest or dishonor. You also waive any applicable statute of limitations to the full extent
permitted by law and any right you may otherwise have to require the Credit Union to proceed against any person
before suing you to collect.
27. Additional Benefits/Card Enhancements. The Credit Union may from time to time offer additional services
to your Account, such as travel accident insurance, purchase rewards or rebates at no additional cost to you. You
understand that the Credit Union is not obligated to continue or to offer such services and may withdraw or change
them at any time. If these benefits are withdrawn prior to any accrued use by you, the Credit Union will have no
obligation to provide the benefit or enhancement, or any other compensation or consideration.
28. Cash Back Rewards. World Mastercard holders will earn cash back on all net Card purchases (purchases
minus credits or returns) only. Cash advances and balance transfers are not considered purchases and will not earn
rewards. Cash back rewards are redeemed in the form of a statement credit upon request at
www.UChooseRewards.com. The rewards balance will be displayed on the statement. Rewards do not expire, but if
your World Mastercard Account is closed, you will lose any rewards that have not been redeemed. There are no
caps on rewards.
29. Mastercard Benefits. The World program comes with Mastercard Benefits, not listed in this Agreement. These
benefits are provided and governed by Mastercard and may change at any time. These benefits have their own
disclosures and contact information, which can be found in the MasterCard World Card Cardholder Benefits, available
from Mastercard.
30. Overdraft Protection. You can choose to link your Credit Card to your Checking account for overdraft
protection. To do this, you must notify us to select this option and inform us of the order in which you want your credit
card to act as an overdraft source. Overdraft advances will be treated as a cash advance as outlined in the Finance
Charges section with interest accruing from the date of the overdraft advance and will not earn UChoose Rewards
points. If you have multiple account owners or authorized signers on your checking account, you will be responsible
for all advances, including interest and charges from your credit card to cover overdrafts regardless of who initiates
the transaction that causes the overdraft. Overdraft advances will transfer funds to your checking account in the
amount needed to cover the transaction if your credit card is in good standing and the credit available is sufficient.
Overdraft advances may occur that cause you to exceed your credit limit. If this occurs, you agree to pay the over
limit amount along with any applicable payment amount.
South Carolina Federal Credit Union
WORLD MASTERCARD CREDIT CARD APPLICATION AND DISCLOSURE

May 1, 2021

31. Additional Terms of Agreement. To the extent not prohibited by applicable law, the terms, interpretation and
enforcement of any claim or dispute arising under this Agreement, as well as all parties’ rights and duties, will be
governed by South Carolina law regardless where you may reside or use your account. Further, this Agreement is the
contract which governs all transactions on your Account even though sales, cash advances, credit or other slips may
contain different terms. You may not transfer or assign your account or Card to any other person. The Credit Union
may assign or transfer this Account, your Account balance, or this Agreement to another person, who will have all of
our rights hereunder. This Agreement is binding on your heirs and legal representatives. If there are joint borrowers, a
guarantor or authorized users for this credit plan, each of you will have the right to use the Account to obtain loans
pursuant to the terms hereof. Any one applicant, guarantor, or authorized users elections, transactions and
directions to the Credit Union shall be binding upon all obligors. Each of you will be liable for all obligations
owing on the Account whether borrowed by you or otherwise and whether within or beyond the credit limit. Further,
each of you are responsible for all amounts borrowed by any authorized user(s). Authorized users and other users
may also be required to repay the amount owed for charges they make; however, you remain, at all times, primarily
responsible for all amounts owed. All Cards, billing statements and notices will be mailed or delivered to the address
given on the application for either applicant unless you direct otherwise in writing. If any law or judicial ruling
makes any part, provision, sentence or section of this Agreement unenforceable, the remainder will continue
in full force and effect. You agree that your account will also be subject to all rules and regulations of MasterCard,
as applicable, which are incorporated herein by reference. If there is any conflict between this Agreement and the
rules and regulations of MasterCard, the rules and regulations of MasterCard, will control, as applicable.
32. Automatic Billing Updater (ABU). ABU is an account updating service in which your card is automatically
enrolled. When your card(s) expire, are lost or stolen, or new cards are issued, the service may update relevant card
data (card numbers and expiration dates) to appropriate merchants who participate in an effort to facilitate
uninterrupted processing of your recurring charges. If at any time you wish to opt-out of the ABU service, or if you
have any questions, please call 855-510-4594.

South Carolina Federal Credit Union
WORLD MASTERCARD CREDIT CARD APPLICATION AND DISCLOSURE

May 1, 2021

Your Billing Rights
Keep This Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find a Mistake On Your Statement
If you think there is an error on your statement, write to us at:
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you
believe it is a mistake.

Card Services – Dispute Center
P.O. Box 182477
Columbus, OH 43272-4935
Or fax your dispute information to 678-375-6096

You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the
amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to
investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you
if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe
the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on
that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your
balance.
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees
related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with
applicable interest and fees. We will send you a statement of the amount you owe and the date payment is
due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that
you still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we reported you as delinquent, and we must
let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount even if your bill is
correct.

South Carolina Federal Credit Union
WORLD MASTERCARD CREDIT CARD APPLICATION AND DISCLOSURE

May 1, 2021

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have
tried in good faith to correct the problem with the merchant, you may have the right not to pay the remaining
amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing
address, and the purchase price must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an
ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
All requests to use this right must be submitted in writing to: Card Services-Dispute Center, P.O. Box 182477,
Columbus, OH 43272-4935. While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.
To Report a Lost or Stolen Card or Other Access Device after hours, call:
1-855-510-4594
301-287-2002 (International)
To Close the Account: (SEND WRITTEN NOTICE)
South Carolina Federal Credit Union
P.O. Box 190012
North Charleston, SC 29412-9012
843-797-8300
1-800-845-0432

South Carolina Federal Credit Union
WORLD MASTERCARD CREDIT CARD APPLICATION AND DISCLOSURE

May 1, 2021

World Mastercard® Credit Card Application Disclosure
This Disclosure along with your World Mastercard Card Agreement governs your
World Mastercard Credit Card.
Interest Rates and Interest Charges

Annual Percentage Rate (APR) for
purchases

APR will be 12.24% to 17.74% based on your credit worthiness. This
APR will vary with the market based on Prime Rate.

Annual Percentage Rate (APR) for
balance transfers

0% introductory APR on transfers made 8/1/2021 through 9/30/2021.*

Annual Percentage Rate (APR) for
cash advances
How to Avoid Paying Interest on
Purchases

17.99%

After 9/30/2021, APR will be 12.24% to 17.74% based on your
credit worthiness. This APR will vary with the market based on Prime
Rate.

Your due date is at least 25 days after the close of each billing cycle.
You will not be charged interest on purchases if your balance is paid
in full by the due date each month. We will begin charging interest on
cash advances and balance transfers on the transaction date.

To learn more about factors to consider when applying for or using a
For Credit Card Tips from the
Consumer Financial Protection Bureau credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore
Fees
Annual Fee
Transaction Fees
Foreign Transaction
Expedited payment fee (Speedpay)
Convenience check stop payment fee
Balance Transfer fee

None
None
$11.00
$35.00
3% of each transfer

Penalty Fees
Up to $30.00
Late Payment
Up to $35.00
Returned Payment
Other Fees
$22.00/hour
Account research fee
Copy fee
$5.00/copy
*0% Introductory APR will apply to the balance from the balance transfer for 12 months. After 12 months,
your qualifying rate will apply to any remaining balance.
How We Will Calculate your Balance: We use a method called “average daily balance (including new purchases
and cash advances).”
The credit union will acquire a security interest in the property purchased with your credit card; and
collateral securing other loans with us may also secure this account.

Security Interest in Accounts: As a condition for approval of this account, we require that you grant us a
security interest in all of your individual and joint deposit accounts which you maintain with us, both now
and in the future, to secure your obligations to us under this account as provided in your Credit Card
Agreement.
Balance transfers may not be used to repay existing South Carolina Federal loan products.
This information was updated in May 2021, was accurate as of and subject to change after that date. Contact
South Carolina Federal at 843-797-8300(Charleston) or 800-845-0432(Nationwide) to find out what may have
changed.
August 1, 2021

